 Department of Health and Human Services


               OFFICE OF

    INSPECTOR GENERAL





HOW THE PRIVATE SECTOR MONITORS
   CUSTOMER SATISFACTION:
      BENCHMARKING REPORT




               SERVICIS.


                           JU   GIBBS BROWN
                           Inspector General
         . 0

                                APRIL 1994
                jll
                              OEI- 02- 94- 00060
Background:

Presidential Executive Order 12862 , issued on September 11 , 1993 , calls for all
governent agencies to be customer- driven. It sets      the standard of quality for services
provided to the public as being equal to " the   highest quality of service delivered to
customers by private organizations providing a comparable or analogous service " in other
words the " best in business. " It also establishes a multi-step plan for agencies to meet this
definition of quality service and then to measure their performance.

Because of its experience in conducting client satisfaction surveys and its belief in the
value of client- based performance indicators , the Offce of Inspector General (OIG) has
undertken this study. We identified 10 " customer- driven " companies whose services or
client relationships are comparable to those of the Social Security Adminstration (SSA)
and the Health Care Financing Administration (HCFA). We interviewed representatives
of these companies to ascertain their standards and methods for measuring client
satisfaction.


Findings:


Seeking Client Input is Seen as Necessary and Important.


All 10 companies report using input from client groups to assess customer satisfaction and

organizational performance.


Companies ' Surveys Are as Variable and Multifaceted as Their Client Groups.


Since client groups vary widely, companies tailor survey instruments and methods to the

needs of each client group. While mail surveys are most prevalent, the telephone is often

used for smaller client groups. Frequent contact with client groups is vital.


Companies Emphasize the Need to Report Survey Findings.


All companies stress the need to write up the findings in reports , as opposed to sharing
them more informally. Internal distribution is wide.
             . .. .. .. .. .. .. .. .. .. '.... ... ... ... ... ... ... ... ... ... ... ... ... .... ........ ... ... ... ... ... ......................... ... ..................



                          TABLE OF CONTENTS

                                                                                                                                                                                PAGE
EXECUTIV SUMARY
INTRODUCTION                                                                                                                                                          . . . . . . 1



FININGS                                                                                                                                                                          . . . 3



 . Client   Input is Seen as Necessary and Importnt. . . . . .                                                                                                   . . . . . . . 3



 . Companies ' Surveys Are as Variable and Multifaceted
    as Their Client Groups                                                                                                                                            . . . . . . 3



 . Companies Emphasize the Need to Report Survey Findings
                                                                                                                                                                                     . . 5




CONCLUSION                                                                                                                                                               . . . . . 5





APPENDIX                                                                                                                                                                 . . . A­
A: Bibliography. . . . . . .                                                                                                                                                 . . A­
                            INTRODUCTION

Background:

Presidential Executive Order 12862 , issued on September 11 ,       1993 ,   calls for all
governent agencies to be customer-driven. It sets         the standard of quality for services
provided to the public as being equal to " the   highest quality of service delivered to
customers by private organizations providing a comparable or analogous service. " The

Executive Order calls for providing the quality of service that large , successful private
businesses provide to their customers , called the " best in business. " It also establishes a
multi-step plan for agencies to use to meet this definition of quality service and then to
measure their performance.

In recent years the private sector has become increasingly attentive to customers , clients
and stakeholders. Companies have consulted with clients to help measure their
performance and to establish standards of service. This practice of developing " customer­
driven " organizations has helped companies provide the quality service their clients
expect.

Because of its experience in conducting client satisfaction surveys and its belief in the
value of client- based performance indicators , the Offce of Inspector General (DIG) has
undertken this study to identify these " customer- driven " companies , their standards and
methods for measuring client satisfaction. With this information , we plan to redesign our
annual Social Security and Medicare Client Satisfaction Surveys , to the extent necessary,
so they wil compare more closely to the approaches of these top
                                                                   companies.
In conducting this assessment , we first researched the subject of benchmarking by
conducting a literature review. Specifically, we reviewed books on the subject of
measuring quality of service. (A bibliography can be found in Appendix A.


We identified 10 companies noted for outstanding customer service and whose services or
client relationships are comparable to those of the Social Security Administration (SSA)
and the Health Care Financing Administration (HCFA). These companies include two
worldwide hotel chains, one electronics manufacturer , a producer of various
                                                                             manufactured
goods and services , a major credit card company, a large insurance company, an express
delivery service , a nationwide child care franchise
                                                     ,   a leading manufacturer of offce
equipment , and a fast- food service. Four of these companies have received the Malcolm
Baldrige National Quality Award , the highest level of national recognition for quality that
a U. S. company can receive. This public award promotes an understanding of quality and
a greater awareness of quality as a crucial competitive element. Up to six awards per
year may be given. The remaining six companies were recognized in
                                                                        The Service Edge , a
book which identifies. by area of business , companies that are " top notch" in service
quality.
We interviewed representatives from each company by telephone and asked questions such
as: Do they collect data from clients? How and how often do they survey clients? How
are clients and the sample selected? What is done with the information once it has been
analyzed?
                                        , "




                                   FINDINGS

Seeking Client Input is Seen As Necessary      and Important.

All 10 companies report using input from client groups to assess customer satisfaction and
organizational performance. Two report keeping track of all complaints and negative
customer reports as a means of staying in tune with client needs. The remaining eight use
some form of client satisfaction survey instrument to gather data on their performance.
The rest of this report wil focus on these eight companies.

Forecasting and improving service are the two main uses for the data , according to
respondents. They repeatedly stress that the survey results are a big part of goal
                                                                                     setting.
One reports, " We use it (the survey) to help establish future goals and maintain a good
customer relationship. " Another states We use it to make recommendations for
improvements. "

The methods used to design and develop these client satisfaction survey instruments differ
from company to company. Each has its own reasons for doing client satisfaction surveys
and , likewise , each arrived at its survey instruments differently. One company keeps a
log of all customer telephone calls for one year and uses the subject of these calls to
identify issues considered importnt by their customers. The survey instruments then
focus on these issues. Another company had a team of employees establish a list of
factors that contribute to success and design a survey instrument to find out the company
rating on each of these factors. Two other companies first established their need to
measure the satisfaction of their customers , and then adapted a widely-used survey
instrument prototype to meet their needs.


Companies ' Surveys Are as Variable and Multifaceted as Their Client Groups.

Companies realize that client groups vary widely.
A consensus exists among our companies that clients are not one homogeneous group, but
are groups with different needs , expectations and characteristics. Accordingly, the
companies believe the first step in developing a client satisfaction survey is identifying all
unique client groups. This parallels the Executive Order which asks agencies to identify
clients as a first step. Companies report that while they annually draw samples from their
entire customer pool , they do more frequent surveys for special client groups like high
volume users , repeat customers , or recent customers. The needs and experiences of these
groups differ from the needs of the overall client pool and must . therefore , be addressed
in a unique fashion. This includes using different survey instruments as well as using
different approaches to contacting these clients.

Tailoring survey instruments to the needs of special client groups is advised.
The type of survey instrument used for special client groups varies. Generally. when the
overall client base is being surveyed, the survey instrument contains mainly closed-ended
       , "




questions relying heavily on scales. These scales range anywhere from four- point to ten-
point intervals.Closed-ended questions are chosen because they facilitate data analysis
making for easier and faster tabulations. This allows for the use of larger samples.

However , for special client groups , such as high-volume users , repeat customers , or
recent customers , the survey instruments tend to contain far more opportnity for the
client to elaborate on his/her experiences. They contain , for the most part , a mix of
closed-ended or multiple choice questions and as well as several open-ended questions
usually relating to a specific incident or recent transaction. Most companies report asking
some of the same questions to both their special client groups and their overall customer
pool for comparison purposes. However , they stress that these special client groups are
questioned in more detail concernng their recent or frequent contact with the company
because that is where they obtain the most helpful information.

While mail surveys are most prevalent, the telephone is often used for smaller client
groups.

The method used to contact client groups also varies. Overall , we found mail surveys to

be the most prevalent method , with all of the companies using them in one form or
another. Generally, the companies find mail surveys the most effective and inexpensive
way to reach large numbers of clients. For example , one company with nearly 100
                                                                                   000
clients sends out a short" opinion card" to each of them annually.

Half the companies report utilizing telephone surveys to get more imediate responses
from certin   special client groups. One company does telephone surveys of meeting
planners imediately following    the event. This ensures fresh    information on courtesy and
efficiency of staff and cleanliness of rooms. It also allows the company to correct errors
so it wil not repeat them for future customers. In addition to reaching recent customers
by telephone ,companies report using telephone surveys for repeat customers because both
the population and sample size is much smaller and therefore more manageable.
Companies advise that it is easier to contract out to survey specialists large jobs
especially those that require a tremendous number of telephone interviews.

Frequent contact with client groups is vital.
Frequency of contact is another variable to consider when addressing special client
groups. Overall , constant contact with customers is seen as an important tool in
monitoring satisfaction. All eight companies perform some type of client
                                                                            satisfaction
survey at least once a year. Generally. they attempt to reach the entire client base at least
once in a twelve month period , but more frequent contact with the unique client groups is
considered crucial.

One company does surveys of recent customers as often as every day, while five others
report surveying this population at least quarterly.
                                                       One stresses the need for such frequent
contact We solicit problems and complaints in these surveys. We look forward to being
able to address them promptly. before too many other clients are affected.
O' .



       Interestingly, the major credit card company has a one- page survey it sends out daily to a
       sample of 20 or so of its customers.   These sample customers would have completed a
       transaction with the credit card on that day. This technque ensures fresh data on
       satisfaction with that transaction. It asks if the purchase cleared promptly, how the
       customer knew the card was accepted at that particular store , why the customer chose to
       use that card as opposed to any others , etc.

       Companies Emphasize the Need to Report Survey Findings.

       All eight companies stress the need to write up the findings from these surveys in report
       form , as opposed to sharing them more informally. Most often , the information is
       aggregated and an overall report written. Many times , regional breakdowns or
       departmental breakdowns also are provided. The information , while not shared externally
       because of the competitive nature of business , is freely shared with employees at all
       levels. The information is considered a vital tool for forecasting future needs
                                                                                       , as well as
       for establishing realistic goals.


       Conclusion:

       Client satisfaction surveys are seen by outstanding   service providers as an   importnt tool
       in monitoring organizational performance. Many different methodologies exist to provide
       this vital information; there is no one correct way. Each company we contacted reports
       using more than one type of survey and more than one methodology to ascertin its
       customers ' needs. Individual decision makers determine which methodologies would best
       provide the information sought.


       Despite the wide variety of methodological   approaches ,   there are some clear messages for
       Federal managers:


                     Know your different client groups and tailor your survey to each.

                     Frequently check the pulse of client satisfaction; some groups may require


surveys              more frequent contact than others.

                     Use mail
           with closed-ended questions to facilitate reaching a wide
                     client base because of their effciency. Telephone surveys and/or open-
                     ended questions may be reserved for special client groups due to the smaller
                     sample sizes and the need for more specific data.

                     Widely distribute reports on findings to assure that staff are aware of the
                     agencies ' commitment to cliems, and that service weaknesses are identified
                     and addressed. Furter , share rcports with the public and oversight
                     agcncies in the spirit of the Executive Order.
t. 

                                                 APPENDIX A

                                                             Bibliography


       Camp, Robert C. Benchmarking - The Search For Industry Best Practices That Lead to
       Superior Performance. ASQC Quality Press , WI 1989.

       DeVellis , Robert;            Scale Development - Theory and Applications , Sage Publications , Inc.
       CA 1991.
       LoSardo , Mary and Rossi , Norma;                  At the Service Quality Frontier ,   ASQC Quality Press
       WI 1993.
       Zeithaml , Valarie , et al;           Delivering Quality Service. The Free Press (A Division of
       Macmilan,Inc. ), NY 1990.

       Zemke , Ron and Schaaf, Dick;                The Service Edge , Penquin Publishing, USA 1990.

       American Management Association; 
                 Blueprints for Service Quality , AMA Membership
       Publications Division ,              N. Y. 1991.


       Process Benchmarking 
               Gregory Watson Xerox Quality Solutions
